No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
MICHAEL SUAREZ,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Michael Suarez, pursuant to SUP CT. R. 39.1, respectfully moves for
leave to file the accompanying petition for writ of certiorari in the Supreme Court of
the United States without payment of costs and to proceed in forma pauperis.
Petitioner was previously found financially unable to obtain counsel and the
Federal Public Defender of the Southern District of Florida was appointed to
represent Petitioner pursuant to 18 U.S.C. ยง 3006A. Therefore, in reliance upon RULE
39.1 and ยง 3006A(d)(6), Petitioner has not attached the affidavit which would
otherwise be required by 28 U.S.C. ยง 1746.
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
Fort Lauderdale, Florida
March 8, 2021

By:___s/Margaret Y. Foldes________
Margaret Y. Foldes
Assistant Federal Public Defender
1 East Broward Blvd., Suite 1100
Fort Lauderdale, Florida 33301-1100
Telephone No. (954) 356-7436

